                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-12-07-0053                                                                   Page 1 of 1



         This matter originated from a proactive review 1 conducted by our office. We identified a three-
         year award2 to a university3 where the university reported that a substantial amount4 had been
         expended in only the first four months of the award.

         The investigation revealed that NSF had approved nine months of pre-award spending, and that
         the pre-award spending and upfront stipend payments accounted for the large early spending.
         Investigation further revealed questionable travel expenses.

         Based on the PI and the university's explanation's we determined the questionable travel
         expenses were justified and no further investigative activity is warranted.

         Accordingly, this investigation is closed.




NSF OIG Form 2 (11102)
